     DEPARTMENT OF HEALTH & HUMAN SERVICES                              OFFICE OF INSPECTOR GENERAL

                                                                        Office of Audit Services,
                                                                        Region I
                                                                       John F. Kennedy Federal Building
                                                                       Boston, MA 02203
                                                                       (617) 565-2684
May 3, 2011

Report Number: A-01-10-00512

Ms. Janeanne C. Lubin-Szafranski
Vice President/General Counsel
Saint Raphael Healthcare System, Inc.
659 George Street
New Haven, CT 06511

Dear Ms. Lubin-Szafranski:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Hospital of Saint Raphael’s Claims for
Inpatient and Outpatient Procedures That Included the Replacement of Medical Devices for
Calendar Years 2008 and 2009. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-2704 or through email at
David.Lamir@oig.hhs.gov. Please refer to report number A-01-10-00512 on all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 –Ms. Janeanne C. Lubin-Szafranski

Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare and Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL



  REVIEW OF THE HOSPITAL OF
  SAINT RAPHAEL’S CLAIMS FOR
    INPATIENT & OUTPATIENT
  PROCEDURES THAT INCLUDED
 THE REPLACEMENT OF MEDICAL
 DEVICES FOR CALENDAR YEARS
         2008 AND 2009




                      Daniel R. Levinson
                       Inspector General

                          May 2011
                        A-01-10-00512
                        Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND

The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, pays for hospital inpatient and outpatient services under distinct prospective
payment systems.

Medical Device Replacement

Common medical devices implanted during outpatient procedures include pacemakers,
cardioverter defibrillators, and their associated leads. Occasionally, devices need to be replaced.
Providers may receive full or partial credit from manufacturers for devices that are covered under
warranty or replaced because of recalls. To offset these credits, Medicare reduces the payment
for the replacement of a device if (1) the device is replaced without cost to the provider, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device.

For outpatient services furnished on or after January 1, 2007, CMS established reporting
requirements for a provider that incurs no cost or that receives full credit for a replaced device.
In such circumstances, CMS requires the provider to report the modifier “FB” and to report
reduced charges on a claim that includes a procedure code for the insertion of a replacement
device. For services furnished on or after January 1, 2008, CMS also requires the provider to
report the modifier “FC” on a claim that includes a procedure code for the insertion of a
replacement device if the provider receives a credit from the manufacturer of 50 percent or more
of the cost of the replacement device. Similarly, for inpatient discharges on or after October 1,
2008, CMS established reporting requirements for a provider that incurs no cost, receives full
credit, or receives a credit for a replaced device that is 50 percent or greater than the cost of the
device. In such circumstances, CMS requires the provider to report the value code “FD” and to
bill the amount of the credit in the amount portion for that value code. CMS further requires the
provider to report appropriate condition codes to indicate a medical device replacement.

Hospital of Saint Raphael

The Hospital of Saint Raphael (the Hospital) is a 511-bed acute-care hospital located in New
Haven, Connecticut. National Government Services (NGS) processes and pays the Hospital’s
Medicare claims. NGS paid the Hospital a total of $6.5 million for 437 outpatient procedures
that included the replacement of medical devices for the 2-year period ending December 31,
2009, and $9.6 million for 367 claims for inpatient claims covering the 15-month period ending
December 31, 2009.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
obtaining credits available from manufacturers for replaced medical devices and for reporting the
appropriate billing codes and charges to reflect the credits received.

                                                  i
SUMMARY OF FINDINGS

The Hospital did not fully comply with Medicare requirements for obtaining credits available
from manufacturers and for reporting the appropriate billing codes and charges to reflect the
credits it received. For 425 outpatient claims and 354 inpatient claims for the audit periods, there
were no available credits or the credits were partial credits received from manufacturers that did
not represent at least 50 percent of the cost of the devices and therefore were not reportable. For
the 25 remaining claims, credits were available from manufacturers and reportable; however:

   •	 For two inpatient claims, the Hospital did not obtain credits that were available under the
      terms of the manufacturers’ warranties.

   •	 For 12 outpatient claims and 11 inpatient claims, the Hospital obtained full credit but did
      not report the “FB” modifier and reduced charges (outpatient) or the “FD” value code and
      appropriate condition code (inpatient) on the claims to alert NGS that payment
      adjustments were needed.

For the 25 claims, the Hospital was overpaid $231,378 ($171,029 outpatient and $60,349
inpatient). Moreover, for these claims, beneficiaries incurred $6,778 in additional copayment
costs. These overpayments and additional copayment costs occurred because the Hospital did
not (1) follow its established procedures to obtain credits available under the terms of
manufacturers’ warranties or (2) have controls to report the appropriate billing codes and charges
to reflect credits due from manufacturers.

RECOMMENDATIONS

We recommend that the Hospital:

   •	 adjust and resubmit to NGS the 25 erroneous claims to correct any outstanding portion of
      overpayments totaling $231,378 ($171,029 outpatient and $60,349 inpatient claims) and
      overstated copayment costs totaling $6,778, and

   •	 strengthen its procedures to obtain credits available from manufacturers and establish
      procedures to report to NGS the credits that the Hospital was entitled to, irrespective of
      whether the credits were obtained, for replaced devices in accordance with Medicare
      requirements.

HOSPITAL OF SAINT RAPHAEL COMMENTS

In its written comments to our draft report, the Hospital concurred with our findings and
recommendations. The Hospital’s comments are included in their entirety as Appendix B.




                                                 ii
                                                  TABLE OF CONTENTS


                                                                                                                           Page

INTRODUCTION..............................................................................................................1 


          BACKGROUND .....................................................................................................1 

              Hospital Prospective Payment Systems .......................................................1 

              Credits for Replaced Medical Devices ........................................................2 

              Reimbursement for Medical Device Replacement ......................................2 

              Hospital of Saint Raphael ............................................................................3 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................3 

               Objective ......................................................................................................3 

               Scope............................................................................................................3 

               Methodology................................................................................................4 


FINDINGS AND RECOMMENDATIONS ....................................................................5 


          MEDICARE REQUIREMENTS.............................................................................5 

               Prudent Buyer Principle...............................................................................5 

               Coding Requirements for Medical Device Credits......................................6 


          NONCOMPLIANCE WITH MEDICARE REQUIREMENTS..............................7 

              Hospital Did Not Obtain Available Credits .................................................7 

              Hospital Did Not Report That It Received Credits......................................7 


          MEDICARE OVERPAYMENTS ...........................................................................8 


          RECOMMENDATIONS.........................................................................................8 


          HOSPITAL OF SAINT RAPHAEL COMMENTS ................................................8 



APPENDIXES

A: CORRESPONDING AMBULATORY PAYMENT CLASSIFICATIONS
   AND DIAGNOSIS RELATED GROUPS

B: HOSPITAL OF SAINT RAPHAEL COMMENTS




                                                                    iii
                                             INTRODUCTION


BACKGROUND


The Medicare program, established by Title XVIII of the Social Security Act (the Act), provides
health insurance coverage to people aged 65 and over, people with disabilities, and people with
end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program. Part A of Title XVIII provides inpatient hospital insurance while Part B of
Title XVIII provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Prospective Payment Systems

Outpatient Prospective Payment System

As mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, together with the Medicare,
Medicaid, and SCHIP Balanced Budget Refinement Act of 1999, P.L. No. 106-113, CMS
implemented an outpatient prospective payment system (OPPS) for hospital outpatient services.
The OPPS was effective for services furnished on or after August 1, 2000. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the ambulatory payment classification (APC) group to which the service is assigned. CMS uses
Healthcare Common Procedure Coding System codes and descriptors to identify and group the
services within each APC group. All services and items within an APC group are comparable
clinically and require comparable resources.

Inpatient Prospective Payment System

The Social Security Act Amendments of 1983, Public Law 98-21, enacted on April 20, 1983,
established a prospective payment system for Medicare reimbursement to hospitals. Section
1886(d) of the Act set forth a system of payments for the costs of acute care hospital inpatient
stays based on prospectively set rates effective for services furnished on or after October 1, 1983.
Under the inpatient prospective payment system (IPPS), each case is categorized into a
diagnosis-related group (DRG). Each DRG has a payment weight assigned to it based on the
average resources used to treat Medicare patients in that DRG.

Under both the OPPS and the IPPS, outlier payments are available when exceptionally costly
services exceed established thresholds.

1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
requires CMS to transfer the functions of fiscal intermediaries to Medicare administrative contractors (MAC)
between October 2005 and October 2011. Most, but not all, of the MACs are fully operational. For jurisdictions
where the MACs are not fully operational, fiscal intermediaries continue to process Part B outpatient claims. For
purposes of this report, the term “Medicare contractor” means the fiscal intermediary or MAC, whichever is
applicable.


                                                         1

Credits for Replaced Medical Devices

Common medical devices implanted during inpatient and outpatient procedures include
pacemakers, cardioverter defibrillators, and their associated leads. Occasionally, devices need to
be replaced. Providers may receive full or partial credit from manufacturers for devices that are
covered under warranty or replaced because of recalls. Warranties vary among manufacturers
and product lines but commonly cover replaced devices on a pro rata basis depending on the age
of the device. Providers generally must send replaced devices back to the manufacturers within a
specified time after the replacement procedures to obtain credits.

Reimbursement for Medical Device Replacement

To offset the credits that a provider receives for costly devices replaced during inpatient and
outpatient procedures, Medicare generally requires payment adjustments. Specifically, for 43
inpatient DRGs and 31 types of devices that fall within 21 outpatient APCs, Medicare reduces
the payment for the replacement of the device if the provider is entitled to full or partial credits
from the manufacturer.

Outpatient Reimbursement

For outpatient services furnished on or after January 1, 2007, CMS established reporting
requirements for a provider that incurs no cost or that receives full credit for a replaced device.
In such circumstances, CMS requires the provider to report the modifier “FB” and to report
reduced charges on a claim that includes a procedure code for the insertion of a replacement
device. 2 For outpatient services furnished on or after January 1, 2008, CMS also requires the
provider to report the modifier “FC” on a claim that includes a procedure code for the insertion
of a replacement device if the provider receives a credit from the manufacturer of 50 percent or
more of the cost of the replacement device. Providers must use these modifiers as required to
ensure that Medicare makes the appropriate payment adjustments.

In the preamble to the regulation implementing the billing requirements for device replacement
credits (71 Fed. Reg. 68072 (Nov. 24, 2006)), CMS stated that payment adjustments were
consistent with section 1862(a)(2) of the Act, which excludes from Medicare coverage an item or
service that neither the beneficiary nor anyone on his or her behalf has an obligation to pay.
According to CMS, payment of the full APC payment rate when a device was replaced under
warranty or when there was a full credit for the price of the replaced device effectively results in
Medicare payment for a noncovered item.




2
 The provider’s failure to report reduced charges on a claim with the “FB” modifier could result in excessive or
unwarranted outlier payments.



                                                          2

Inpatient Reimbursement

For inpatient discharges on or after October 1, 2008, CMS established reporting requirements for
a provider that incurs no cost, receives full credit, or receives a credit for a replaced device that is
50 percent or greater than the cost of the device. In such circumstances, CMS requires the
provider to report the value code “FD” on its claim and to bill the amount of the credit in the
amount portion for that value code. CMS further requires the provider to report condition codes
49 or 50 to indicate a medical device replacement. 3

Hospital of Saint Raphael

The Hospital of Saint Raphael (the Hospital) is a 511-bed acute-care hospital located in New
Haven, Connecticut. As the Medicare contractor for hospitals in Connecticut, National
Government Services (NGS) processes and pays the Hospital’s claims for Medicare services. 4

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
obtaining credits available from manufacturers for replaced medical devices and for reporting the
appropriate billing codes and charges to reflect the credits received.

Scope

Our audit covered $16.1 million in Medicare payments to the Hospital for procedures involving
the possible replacement of medical devices. Our audit population consisted of 804 claims: 437
outpatient claims, totaling $6.5 million, with dates of service during the 2-year period ending
December 31, 2009; and 367 inpatient claims, totaling $9.6 million, with dates of services during
the 15-month period ending December 31, 2009. 5 We limited our audit to claims that involved
the replacement of pacemakers, cardioverter defibrillators, and their associated leads. 6 The
listings of the corresponding 7 outpatient APCs and 14 inpatient DRGs applied in this audit are
included in Appendix A. During the audit periods, the Hospital did not submit any outpatient
claims with “FB” or “FC” modifiers, and it did not submit any inpatient claims with the “FD”
value code or the appropriate condition code. 7

3
  Effective April 1, 2006, CMS required the use of two new condition codes to track devices provided without cost to 

providers. Condition code 49 refers to the replacement of a device which is not functioning properly and condition

code 50 refers to devices subject to recalls. Medicare payment edits require the presence of both value and

condition codes for inpatient claims involving a medical device replacement. Medicare Claims Processing Manual, 

Pub. 100-04, CR 4058, Transmittal 741.

4
  NGS became a MAC in March 2008.

5
  Requirements for use of the FD code for inpatient medical device credits did not commence until October 1, 2008.

Medicare Claims Processing Manual, Pub. 100-04, CR 5860, Transmittal 1509.

6
  Our prior audits of replaced medical device credits disclosed that these types of devices presented the greatest risk

of non-compliance with Medicare requirements.

7
  During our audit, the Hospital self-initiated a review to determine those claims that needed to be adjusted and

resubmitted to NGS to reflect reportable credits received from manufacturers.



                                                          3

We limited our internal control review to the Hospital’s controls related to (1) preparing and
submitting Medicare claims for procedures that included the replacement of medical devices and
(2) identifying and obtaining credits and reporting that manufacturers provided credits for
medical devices that were either covered under warranty or recalled.

We conducted our fieldwork at the Hospital in New Haven, Connecticut, and at three medical
device manufacturers in St. Paul, Minnesota, from May through September 2010. We also
contacted NGS.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations, and guidance;

   •	 extracted from CMS’s National Claims History file the Hospital’s outpatient paid claim
      data for the 2-year period ending December 31, 2009, and inpatient paid claim data for
      the 15-month period ending December 31, 2009;

   •	 developed computer applications to identify (1) 437 outpatient claims that included
      procedures for the replacement of any of the 7 specified types of APCs and 14 medical
      devices and (2) 367 inpatient claims that included the 14 specific DRGs;

   •	 selected judgmental samples of 30 outpatient claims and 25 inpatient claims and
      reviewed the beneficiaries’ medical records, accounts payable invoices, and
      manufacturers’ warranties to determine whether the Hospital should have submitted the
      claims with the applicable billing codes and reduced charges;

   •	 reviewed the Hospital’s procedures for identifying and obtaining credits and reporting on
      its Medicare claims that the manufacturers provided credits for replaced devices;

   •	 interviewed officials from selected device manufacturers that conducted business with the
      Hospital to identify their requirements for issuing credits and obtained lists of credits
      issued to the Hospital to determine whether Medicare payment adjustments were needed;

   •	 verified the results of the Hospital’s self-initiated review of its inpatient and

      outpatient claims; 


   •	 reviewed adjusted claims that the Hospital resubmitted to NGS;

   •	 calculated the correct payments for those claims for which payment adjustments

      were needed; and


   •	 discussed the results of our review with Hospital officials.




                                                 4

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital did not fully comply with Medicare requirements for obtaining credits available
from manufacturers and for reporting the appropriate billing codes and charges to reflect the
credits it received. For 425 outpatient claims and 354 inpatient claims for the audit periods, there
were no available credits or the credits were partial credits received from manufacturers that did
not represent at least 50 percent of the cost of the devices and therefore were not reportable. For
the 25 remaining claims, credits were available from manufacturers and reportable; however:

   •	 For two inpatient claims, the Hospital did not obtain credits that were available under the
      terms of the manufacturers’ warranties.

   •	 For 12 outpatient claims and 11 inpatient claims, the Hospital obtained full credit but did
      not report the “FB” modifier and reduced charges (outpatient) or the “FD” value code and
      appropriate condition code (inpatient) on the claims to alert NGS that payment
      adjustments were needed.

For 25 claims the Hospital was overpaid $231,378 ($171,029 outpatient and $60,349 inpatient).
Moreover, for these claims, beneficiaries incurred $6,778 in additional copayment costs. These
overpayments and additional copayment costs occurred because the Hospital did not (1) follow
its established procedures to obtain credits available under the terms of manufacturers’
warranties or (2) have controls to report the appropriate billing codes and charges to reflect
credits due from manufacturers.

MEDICARE REQUIREMENTS

Prudent Buyer Principle

Under 42 CFR § 413.9, “All payments to providers of services must be based on the reasonable
cost of services. . . .” CMS’s Provider Reimbursement Manual, part 1, section 2102.1, states:
“Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed
what a prudent and cost conscious buyer pays for a given item or service. If costs are determined
to exceed the level that such buyers incur, in the absence of clear evidence that the higher costs
were unavoidable, the excess costs are not reimbursable under the program.”

Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties. Section 2103(C)(4) provides
the following example: “Provider B purchases cardiac pacemakers or their components for use
in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for


                                                 5

full or partial credits available under the terms of the warranty covering the replaced equipment.
The credits or payments that could have been obtained must be reflected as a reduction of the
cost of the equipment.”

Coding Requirements for Medical Device Credits

Outpatient Coding Requirements

Federal regulations (42 CFR § 419.45) require reductions in the OPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and in its Medicare Claims
Processing Manual (the Manual) explains how a provider should report no-cost and reduced-cost
devices under the OPPS. For services furnished on or after January 1, 2007, CMS requires the
provider to report the modifier “FB” and reduced charges on a claim that includes a procedure
code for the insertion of a replacement device if the provider incurs no cost or receives full credit
for the replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device (the Manual,
chapter 4, § 61.3.1). If the provider receives full credit from the manufacturer for a replaced
device that is less expensive than the replacement device, the provider must report a charge that
represents the difference between its usual charge for the device being implanted and its usual
charge for the device for which it received credit (the Manual, chapter 4, § 61.3.2).

For services furnished on or after January 1, 2008, CMS requires the provider to report the
modifier “FC” on a claim that includes a procedure code for the insertion of a replacement
device if the provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device. Partial credits for less than 50 percent of the cost of a replacement
device need not be reported with any modifier.

Inpatient Coding Requirements

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider, (2)
the provider receives full credit for the cost of a device, or (3) the provider receives a credit equal
to 50 percent or more of the cost of the device.

CMS guidance in Transmittal 1509, dated May16, 2008, explains how a provider should report
no-cost and reduced-cost devices under the IPPS. For services furnished on or after October 1,
2008, CMS requires providers to bill the amount of the credit in the amount portion for value
code “FD” when the provider receives a credit for a replaced device that is 50 percent or greater
than the cost of the device. Partial credits for less than 50 percent of the cost of the device need




                                                   6

not be reported with the “FD” value code. 8 In addition, CMS Transmittal 741, dated November
4, 2005, and effective April 1, 2006, requires the use of two condition codes to track devices
provided without cost to providers. Condition code 49 refers to the replacement of a device
which is not functioning properly, and condition code 50 refers to devices subject to recalls.
NGS prepayment edits require the presence of both value and condition codes for inpatient
claims involving a medical device replacement.

NONCOMPLIANCE WITH MEDICARE REQUIREMENTS

Hospital Did Not Obtain Available Credits

For two inpatient claims, the Hospital did not obtain credits for replaced leads that were available
under the terms of the manufacturers’ warranties. For example, according to the Hospital’s
records for one claim, the defibrillator lead was subject to recall. The lead was replaced and the
Hospital was due a credit from the manufacturer. The Hospital should have obtained the credit,
used the “FD” value code and appropriate condition code on its claim, and received a reduced
payment.

Overpayments of $4,568 for the two claims occurred because the Hospital did not follow its
established procedures to obtain credits available under the terms of manufacturers’ warranties. 9

Hospital Did Not Report That It Received Credits

For 23 claims the Hospital received either full or partial credits for a replaced device, but did not
report the appropriate billing codes and charges to reflect the credits it received. Specifically, for
12 outpatient claims, the Hospital received full or partial credits from manufacturers, but did not
report the required “FB” or “FC” modifier and reduced charges on its claims. Similarly, for 11
inpatient claims, the Hospital received full credits, but did not report the “FD” value code and
appropriate condition code on its claims. For instance, for one claim, according to the
beneficiary’s medical records, the replaced device needed to be removed because the battery was
depleted. Under the terms of the warranty, the manufacturer provided full credit for the cost of
the replaced device. Therefore, this claim should have been submitted with the appropriate
billing codes and charges to alert NGS that a payment reduction was needed.




8
  We identified an ambiguity created by section 100.8 of Chapter 3 of the Medicare Claims Processing Manual, Pub.
100-04, as it currently reads. Whereas the regulation and Transmittal 1509 can be read to apply the “50 percent or
greater” threshold to the cost of the replaced device, section 100.8, effective October 1, 2009, can be interpreted to
apply the threshold to the cost of the replacement device. To remain consistent with the requirements of the
outpatient regulation, we interpreted the inpatient requirements to apply the threshold to the cost of the replacement
device, but note that for the inpatient claims identified below in which we determined that the hospital received a
credit which was 50 percent or greater than the cost of the replacement device, that the credit would have also been
50 percent or greater than the cost of the replaced device. As such, our determination of overpayments remained the
same under either interpretation.
9
  The Hospital subsequently received credits for the replaced leads from the manufacturers and adjusted its inpatient
claims with the “FD” value code.


                                                          7

Overpayments of $171,029 for the 12 outpatient claims and $55,782 for the 11 inpatient claims
occurred because the Hospital did not have controls for reporting medical device credits received
from manufacturers. 10 Specifically, the Hospital did not have procedures for coordinating
functions among the various departments (i.e., clinical, materials management, health
information management, patient accounting, and accounts payable) to ensure that it submitted
claims with the appropriate modifier and reduced charges to initiate reduced payments for credits
received from manufacturers.

MEDICARE OVERPAYMENTS

For 25 claims the Hospital was overpaid $231,378 ($171,029 outpatient and $60,349 inpatient).
Moreover, for these claims, beneficiaries incurred $6,778 in additional copayment costs
associated with the outpatient claims.

RECOMMENDATIONS

We recommend that the Hospital:

     •	 adjust and resubmit to NGS the 25 erroneous claims to correct any outstanding portion of
        overpayments totaling $231,378 ($171,029 outpatient claims and $60,349 inpatient) and
        overstated copayment costs totaling $6,778, and

     •	 strengthen its procedures to obtain credits available from manufacturers and establish
        procedures to report to NGS the credits that the Hospital was entitled to, irrespective
        of whether the credits were obtained, for replaced devices in accordance with
        Medicare requirements.


HOSPITAL OF SAINT RAPHAEL COMMENTS

In its written comments to our draft report, the Hospital concurred with our findings and
recommendations. The Hospital’s comments are included in their entirety as Appendix B.




10
  During our review, the Hospital adjusted and resubmitted the 12 outpatient claims to NGS. Although the Hospital
correctly reported the “FB” modifier on eight of the adjusted claims, it did not report reduced charges. The Hospital
incorrectly reported the “FC” modifier on three of the four remaining adjusted claims. As a result, the adjusted
claims did not fully resolve the overpayments.


                                                          8

APPENDIXES
       APPENDIX A: CORRESPONDING AMBULATORY PAYMENT
        CLASSIFICATIONS AND DIAGNOSIS RELATED GROUPS


          Outpatient Ambulatory Payment Classifications (APCs)


APC                                    APC Description
0089     Insertion/Replacement of Permanent Pacemaker and Electrodes
0090     Insertion/Replacement of Pacemaker Pulse Generator
0106     Insertion/Replacement of Pacemaker Leads and/or Electrodes
0107     Insertion of Cardioverter-Defibrillator
0108     Insertion/Replacement/Repair of Cardioverter-Defibrillator Leads
0654     Insertion/Replacement of a Permanent Dual Chamber Pacemaker
0655     Insertion/Replacement/Conversion of a Permanent Dual Chamber Pacemaker


                Inpatient Diagnosis Related Groups (DRGs)

DRG                                     DRG Description
222      Cardiac Defibrillator Implant with Cardiac Catheterization with Acute
         Myocardial Infarction/Heart Failure/Shock with Major
         Complication/Comorbidity (MCC)
223      Cardiac Defibrillator Implant with Cardiac Catheterization with Acute
         Myocardial Infarction/Heart Failure/Shock without MCC
224      Cardiac Defibrillator Implant with Cardiac Catheterization without Acute
         Myocardial Infarction/Heart Failure/Shock with MCC
225      Cardiac Defibrillator Implant with Cardiac Catheterization without Acute
         Myocardial Infarction/Heart Failure/Shock without MCC
226      Cardiac Defibrillator Implant without Cardiac Catheterization with MCC
227      Cardiac Defibrillator Implant without Cardiac Catheterization without MCC
242      Permanent Cardiac Pacemaker Implant with MCC
243      Permanent Cardiac Pacemaker Implant with Complication/Comorbidity (CC)
244      Permanent Cardiac Pacemaker Implant without CC/MCC
258      Cardiac Pacemaker Device Replacement with MCC
259      Cardiac Pacemaker Device Replacement without MCC
260      Cardiac Pacemaker Revision Except Device Replacement with MCC
261      Cardiac Pacemaker Revision Except Device Replacement with CC
262      Cardiac Pacemaker Revision Except Device Replacement without CC/MCC
                 APPENDIX B: HOSPITAL OF SAINT RAPHAEL COMMENTS                            Page 1 of 2


 J!lb Saint Raphael 

 --
 .11r Healthcare System 

       659 George Street New Haven, Connecticut 06511 www.srhs.org


April 18, 2011

Mr. Michael J. Armstrong
Regional Inspector General for Audit Services
Department of Health & Human Services
Office of Inspector General
John F. Kennedy Federal Building/Room 2425
Boston, MA 02203

Report Number: A-01-10-00512

Dear Mr. Armstrong:

 I am responding on behalf of the Hospital of Saint Raphael to the above referenced report entitled
Review ofthe Hospital ofSaint Raphael's Claims for Inpatient & Outpatient Procedures that Included
the Replacement ofMedical Devices for Calendar years 2008 and 2009.

The Office of Inspector General has made two recommendations:

Recommendation #1: Adjust and resubmit to NGS the 25 erroneous claims to correct any outstanding
portion of the overpayments totaling $231,378 ($171,029 outpatient and $60,349 inpatient claims) and
overstated copayment costs totaling $6,778.

Response:

The Hospital of Saint Raphael has reviewed the identified claims and has adjusted the claims as
appropriate in accordance with the Medicare billing regulations.

   • 	 For the two inpatient claims we have determined that each patient received both an AICD and
       leads. The AICDs were not eligible for manufacturer credits since they were replaced for clinical
       reasons and were not subject to recall or warranty. The credits received for the leads were
       processed on adjusted claims through the Medicare Fiscal Intermediary Shared System (FISS).
   •	        The 12 outpatient claims and 11 inpatient claims were reviewed based on our understanding
       of the Medicare billing requirements. Adjusted bills were submitted through the Medicare FISS
       with a modifier "FD" value code and a modifier "FB" for those devices replaced by the
       manufacturer at no cost or, for which a full credit was received. In those instances where a partial
       credit equal to 50 percent or more of the cost of the replacement device was received, the adjusted
       bill was submitted using modifier "Fe." The billing for co-payments was also adjusted as
       appropriate.




                             Sponsored by the Sisters of Charity of Saint Elizabeth
                                                                                               Page 2 of 2



Recommendation #2: Strengthen ... procedures to obtain credits available from manufacturers
and establish procedures to report to NGS the credits that the hospital was entitled to receive.

In order to comply with the Medicare requirements for obtaining credits available from
manufacturers for replaced medical devices the Saint Raphael Healthcare System and Hospital of
Saint Raphael have adopted billing policies: Policy HSR M-130 Medical Device Implant and
Explant Policy and Policy SRHS M-IO Medical Device Tracking Policy and Policy SRHS C-40
Accounting for Credits for Implantable Devices (see Attachment A). The Hospital has
developed a reporting system involving our Operating Rooms and Catheterization Labs,
Materials Management, and Patient Accounts. The Hospital is diligent in making good faith
efforts to identify and receive all available credits for any replaced device and has submitted
adjusted bills in accordance with CMS regulations. Quarterly internal audits of these procedures
are conducted to ensure compliance. Based on the internal audits performed the Hospital has
developed a reliable process to track explanted devices, to pursue available credits, and to submit
adjusted bills to CMS for adjudication under the prospective payment system.



We appreciate the assistance provided to us during this review by the representatives of the Office of the
Inspector General. We will continue to monitor the process for explanted devices and thank you for the
opportunity to respond to your findings.

If I can be of any further assistance, please don't hesitate to contact me.



Thank you.



Yours,




J.C. Lubin-Szafranski

Vice President/General Counsel
